App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 19-60268
-----------------------------------------------------------------------

MICHAEL WIGGINTON, JR.,
Plaintiff-Appellee,
v.
CHANCELLOR DANIEL W. JONES, Individually and
in his ofﬁcial capacity as Chancellor; PROVOST MORRIS H. STOCKS, Individually and in his ofﬁcial capacity as Provost; DEAN JOHN Z. KISS, Individually and
in his ofﬁcial capacity as Dean; DEAN VELMER BURTON, Individually and in his ofﬁcial capacity as Dean;
CHAIR ERIC LAMBERT, Individually and in his ofﬁcial capacity as Department Chair,
Defendants-Appellants.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Northern District of Mississippi.
-----------------------------------------------------------------------

(Filed Jul. 1, 2020)
Before: CLEMENT, HIGGINSON,
HARDT, Circuit Judges.

and

ENGEL-

STEPHEN A. HIGGINSON, Circuit Judge.
Dr. Michael Wigginton was denied tenure during
his sixth year as an assistant professor of Legal Studies at the University of Mississippi. He sued several

App. 2
university ofﬁcials in their individual capacities, alleging that they violated his substantive due process
rights when they evaluated his eligibility for tenure in
an arbitrary and capricious manner. The district court
denied defendants’ qualiﬁed immunity defenses and
allowed Wigginton’s case to proceed to a jury. After a
week-long trial, Wigginton was awarded over $200,000
in damages for lost wages and past and future pain and
suffering.
We hold that the district court erred when it denied defendants’ motions for qualiﬁed immunity. Because Wigginton did not have a clearly-established
property right, we REVERSE and RENDER judgment
in favor of defendants.
I.
In 2008, Dr. Michael Wigginton was hired by the
University of Mississippi as an assistant tenure-track
professor of Legal Studies in the School of Applied Sciences. Before entering academia, Wigginton spent his
career as a professional law enforcement agent. He became an assistant professor after earning his PhD
from the University of Southern Mississippi. At the
University of Mississippi (“the University”), his research and teaching responsibilities focused on criminal justice, homeland security, and terrorism.

App. 3
A.

Tenure Policies and Guidelines

As a tenure-track employee, Wigginton was required to complete a ﬁve-year probationary period before he would become eligible for a formal process of
tenure review. During Wigginton’s time with the University, three separate tenure documents governed the
terms of his employment.1 The University’s policy,
which applies to all schools within the University of
Mississippi system, provides that tenure candidates
will be evaluated on three different axes: “teaching, research and/or creative achievement, and service.” The
policy deﬁnes “research and creative achievement” as
scholarly work that “make[s] contributions to the expansion of knowledge and indicate[s] the professional
vitality of the candidate.” It identiﬁes several examples
of achievement in this area, including “articles in refereed or other scholarly professional journals."2 Textbooks are not included in the policy’s list of scholarly
achievements; instead, the University policy explains
that a professor’s contributions to textbooks are evaluated as an aspect of the professor’s teaching abilities.
The School of Applied Sciences (“the School”)
maintains its own tenure guidelines. Like the
1

According to the University’s “Tenure Policies and Procedures” document, the Provost or Vice Chancellor for Academic Affairs bears the responsibility of ensuring “that each school’s or
department’s standards are consistent with the University’s mission.”
2
A “refereed” journal is a journal that ensures rigorous review of scholarship by experts within a scholar’s ﬁeld before articles are selected for publication.

App. 4
University policy, the School’s guidelines explain that
“instructional textbooks” will be evaluated as an aspect of a professor’s teaching abilities—not his scholarly and research skills. The School’s guidelines
emphasize the importance of research, warning that
tenure will not be granted unless the professor establishes a “continuous record of scholarship in refereed,
academic journals.”
Finally, the Legal Studies Department (“the Department”) maintains its own “Guidelines for Tenure
and Promotion.” In contrast with the above documents,
the Department’s guidelines explain that a candidate’s
publication of textbooks by a “recognized professional
press” will be considered when evaluating the professor’s research and scholarship contributions. The Department guidelines do not require professors to
publish articles in refereed journals in order to become
eligible for tenure.
All three documents contain language that highlights the subjective nature of the tenure review process. Though the University’s policy notes that “[t]here
is an understanding that good faith is a requirement
for all facets of th[e] policy,” it also explains that candidates who meet the speciﬁed criteria are not necessarily guaranteed a tenure award. The University’s
policy explains that candidates may be denied tenure
if they are not “ﬁtted or needed to serve the present
and future needs of the University’s programs.” Likewise, both the School and Department guidelines explain that a candidate’s scholarship record is
measured in terms of quantity and quality. The quality

App. 5
of a professor’s research contributions will be judged
by objective and subjective measures, including by the
opinions of peer scholars in the professor’s ﬁeld, “ranking sources for journals, [and] citations and citation
rates (when available).”
B.

Tenure Denial and Termination

The events leading to the University’s decision to
deny Wigginton tenure are largely undisputed. Because this appeal follows a jury verdict, we recount the
facts “in the light most favorable to the jury’s determination.” Waganfeald v. Gusman, 674 F.3d 475, 480 (5th
Cir. 2012).
When Wigginton was hired, Dr. David McElreath,
the Chair of the Legal Studies Department during the
2008–2009 and 2009–2010 school years, told him that
the “major emphasis in [the] [D]epartment was teaching.” Consistent with that priority, McElreath encouraged Wigginton to focus his scholarship efforts on
publishing textbooks, rather than pursuing other
forms of research and writing. McElreath gave Wigginton positive evaluations in his ﬁrst two annual reviews, expressing the opinion that Wigginton had
“outstanding” research skills and that he was “exceed[ing] all expectations for advance in rank.”
During the 2010–2011 school year, Dr. Stephen
Mallory took over as interim Chair of the Legal Studies
Department. Mallory told Wigginton to “keep doing
what [he had been]” doing under McElreath’s supervision. In Wigginton’s third, fourth, and ﬁfth year

App. 6
evaluations, Mallory gave Wigginton high marks for
his “cutting edge” research, and explained that it was
his belief that Wigginton was “making excellent progress toward meeting the expectations for tenure-track
faculty.” A month before Mallory submitted Wigginton’s ﬁfth-year review, Wigginton was notiﬁed that
he had been nominated for the Thomas A. Crowe Outstanding Faculty Award—a Department prize that
recognized “meritorious faculty engagement in scholarship, teaching, and service.” Though Wigginton was
his Department’s nominee, he was not selected as the
winner of the Award.
In accordance with University policy, Wigginton
formally applied for tenure in 2013, at the beginning of
his sixth year at the University. At that time, he had
co-authored ﬁve textbooks, published two peer-reviewed journal articles and had a third accepted for
publication, and published one article in a professional, non-academic journal. Wigginton prepared his
application and submitted a list of potential external
reviewers with knowledge of his work. The Department Chair was responsible for selecting three reviewers from that list and, in consultation with the faculty,
identifying two additional reviewers who could provide
their assessment of Wigginton’s work. All ﬁve of Wigginton’s external reviewers provided a positive review
of Wigginton’s skills, research record, and eligibility for
tenure.
Wigginton’s application was forwarded to the tenured faculty members in his Department, who voted 5
to 2 in favor of granting tenure and 4 to 2 in favor of

App. 7
promoting him from assistant to associate professor.3
The faculty recommendation was then submitted to Dr.
Eric Lambert, who had assumed the position of Chair
of the Legal Studies Department a few months earlier,
in August 2013. In a six-page letter, Lambert recommended that the University deny Wigginton tenure
and promotion. He based his recommendation primarily on his conclusion that Wigginton’s “scholarly
productivity and quality is very low.” Though he
acknowledged that Wigginton had contributed to several textbooks, he found Wigginton’s peer-reviewed articles to be “both few and of low quality.”
Lambert submitted his recommendation to the
Dean’s Committee, which voted 3 to 2 in favor of granting tenure and promotion. Wigginton’s application and
the Dean’s Advisory Committee recommendation were
then sent to Velmer Burton, Jr., the Dean of the School
of Applied Sciences. Burton echoed much of Lambert’s
assessment and recommended rejecting Wigginton’s
application for tenure and promotion. In addition to his
reservations about Wigginton’s scholarship, Burton expressed “real concerns” that the ﬁve external reviewers
who evaluated Wigginton’s work were biased in their
assessment.

3

When Wigginton applied for tenure, he simultaneously applied for a promotion—a related but distinct University process.
One of the tenured professors who voted to grant Wigginton tenure was an assistant professor, so he was unable to vote for or
against Wigginton’s promotion.

App. 8
Dean John Kiss, the Dean of the Graduate School,
agreed with Lambert and Burton and recommended
denying Wigginton tenure and promotion.
Pursuant to University policy, Wigginton’s application was forwarded to the Tenure and Promotion Review Committee. The Committee expressed concern
that the guidelines used to evaluate Wigginton were
insufﬁciently clear. Nevertheless, the Committee “did
not . . . ﬁnd cause to consider the negative recommendations as arbitrary, capricious, or otherwise associated with improper grounds.”
Wigginton’s application was sent to Provost Morris Stocks, who recommended denying tenure and promotion because Wigginton’s research “d[id] not rise to
the level of outstanding.”
Wigginton sought review of these recommendations by the Tenure and Promotion Appeals Committee, which held a hearing in April 2014. Though the
Committee did not believe that university ofﬁcials
acted improperly by failing to consider evidence of Wigginton’s record, it did ﬁnd ﬂaws with Wigginton’s review process. The Committee was concerned that
Wigginton had received inconsistent advice throughout his probationary period, and also expressed the
opinion that Wigginton’s external reviews should have
been viewed with more deference. It ultimately recommended that the University grant Wigginton an extended probation period “so that he can demonstrate
his ability to meet [the University’s tenure] expectations.”

App. 9
The Committee’s assessment was forwarded to
Daniel Jones, Chancellor of the University. Jones
agreed with the previous administrator recommendations and declined to nominate Wigginton for tenure or
promotion. Jones declined the Committee’s recommendation to grant Wigginton an extended probationary
period, and instead granted Wigginton a contract for a
ﬁnal year of employment. Wigginton’s employment at
the University concluded on May 10, 2015.
C.

Procedural History

Wigginton ﬁled this lawsuit in June 2015. He asserted a variety of federal and state-law claims, including claims for age, sex, and race discrimination;
retaliation; and a violation of his substantive due process rights. After a week-long trial, the jury returned a
verdict in favor of Wigginton on his substantive due
process claim and awarded him $218,000 in damages.4
The defendants ﬁled a renewed motion for judgment as a matter of law and a motion to alter or amend
the judgment. The district court denied defendants’
motions in their entirety, and this appeal followed.

4

Only two of Wigginton’s claims were submitted to the jury:
his substantive due process claim and his age discrimination
claim. The jury found no liability on Wigginton’s age discrimination claim. Wigginton does not challenge that ﬁnding on appeal.

App. 10
II.
We review a challenge to a district court’s denial
of a motion for judgment as a matter of law “de novo,
applying the same standard applied by the district
court.” Montano v. Orange County, 842 F.3d 865, 873
(5th Cir. 2016). Under Federal Rule of Civil Procedure
50, judgment as a matter of law is appropriate if “a
party has been fully heard on an issue during a jury
trial and the court ﬁnds that a reasonable jury would
not have a legally sufﬁcient evidentiary basis to ﬁnd
for the party on that issue.” Fed. R. Civ. P. 50(a)(1).
Defendants argue that the district court erred
when it denied their motions for qualiﬁed immunity.
Defendants raised their qualiﬁed immunity defense
multiple times in the district court, both before and after the jury issued its verdict.5 See Fed. R. Civ. P. 50(b)
(authorizing the losing party to ﬁle a renewed motion
for judgment as a matter of law within 28 days of entry
of judgment). They argue that they are entitled to qualiﬁed immunity because the terms of Wigginton’s employment did not give rise to a clearly-established
protected property interest—a necessary prerequisite
for the viability of his substantive due process claim.
“Whether an asserted federal right was clearly established at a particular time . . . presents a question
5

Speciﬁcally, defendants moved for qualiﬁed immunity on at
least ﬁve separate occasions: in their motion to dismiss; in their
post-discovery motion for summary judgment; at the close of Wigginton’s case-in-chief; at the close of all evidence; and after the
jury verdict was announced.

App. 11
of law, not one of ‘legal facts.’ ” Elder v. Holloway, 510
U.S. 510, 516 (1994). We review questions of law, including the district court’s qualiﬁed immunity conclusion, de novo. See id.; see also Tamez v. City of San
Marcos, 118 F.3d 1085, 1091 (5th Cir. 1997) (“We review de novo [the court’s] legal conclusions, whether
regarding federal or state law, in entering judgment
under Rule 50(b).”). “Qualiﬁed immunity shields government ofﬁcials from civil damages liability unless
the ofﬁcial violated a statutory or constitutional right
that was clearly established at the time of the challenged conduct.” Reichle v. Howards, 566 U.S. 658, 664
(2012) (emphasis added). “To be clearly established, a
right must be sufﬁciently clear ‘that every reasonable
ofﬁcial would [have understood] that what he is doing
violates that right.’ ” Id. (quoting Ashcroft v. al-Kidd,
563 U.S. 731, 741 (2011)). The court must be able to
point to “controlling authority—or a ‘robust consensus
of [cases of ] persuasive authority’—that deﬁnes the
contours of the right in question with a high degree of
particularity.” Morgan v. Swanson, 659 F.3d 359, 371–
72 (5th Cir. 2011) (footnote omitted) (quoting al-Kidd,
563 U.S. at 742). This inquiry “must be undertaken in
light of the speciﬁc context of the case, not as a broad
general proposition.” Mullenix v. Luna, 136 S. Ct. 305,
308 (2015) (quoting Brosseau v. Haugen, 543 U.S. 194,
198 (2004) (per curiam)).
In addition to their qualiﬁed immunity defenses,
defendants make several additional arguments in favor of an amended judgment or new trial. We agree
that Wigginton fails to establish that his rights were

App. 12
clearly established, and we therefore do not reach defendants’ other arguments in support of reversal.
III.
The district court erred when it denied defendants’ motion for qualiﬁed immunity and concluded
that Wigginton had a clearly-established property interest. In reviewing a substantive due process claim,
the existence of a protected property interest is a
threshold issue we must reach before we consider
whether the defendants’ actions were arbitrary and capricious. See Moulton v. City of Beaumont, 991 F.2d
227, 230 (5th Cir. 1993). “If there is no protected property interest, there is no process due.” Spuler v. Pickar,
958 F.2d 103, 106 (5th Cir. 1992); see also Whiting v.
Univ. of S. Miss., 451 F.3d 339, 344 (5th Cir. 2006), abrogated on other grounds by Sims v. City of Madisonville, 894 F.3d 632 (5th Cir. 2018). We regularly
grant qualiﬁed immunity in substantive due process
cases where the plaintiff fails to establish a clearly-established property interest. See, e.g., Wilkerson v. Univ.
of N. Tex. By and Through Bd. of Regents, 878 F.3d 147,
155 (5th Cir. 2017); Williams v. Tex. Tech. Univ. Health
Scis. Ctr., 6 F.3d 290, 294 (5th Cir. 1993). Because Wigginton fails to identify any state or federal law that
placed defendants on notice that his alleged contractual right to a fair tenure-review process was a constitutionally-protected interest, we reverse.
In order to have a property interest in a beneﬁt, “a
person . . . must have more than an abstract need or

App. 13
desire for it,” and he must be able to establish “more
than a unilateral expectation” that he would receive it.
Bd. of Regents of State Colls. v. Roth, 408 U.S. 564, 577
(1972). To succeed on his substantive due process
claim, Wigginton must show that he had a “legitimate
claim of entitlement” to the interest he asserts. Id.
Property interests are created and deﬁned by “existing
rules or understandings that stem from an independent source such as state law.” Id. However, whether a
state-created property interest “rises to the level” of a
constitutionally-protected interest is a matter of federal constitutional law. Town of Castle Rock v. Gonzales, 545 U.S. 748, 757 (2005).6
By deﬁnition, the establishment of a discretionary
tenure policy demonstrates that “teachers without tenure are not assured of continuing employment.” Staheli
v. Univ. of Miss., 854 F.2d 121, 124 (5th Cir. 1988). Discretionary tenure policies provide universities with the
ﬂexibility to grant or deny tenure based on subjective
criteria, rather than “restrict[ing] . . . administrators’
discretion by objective criteria and mandatory language.” Wicks v. Miss. Valley State Univ., 536 So. 2d 20,
23 (Miss. 1988). Consistent with these principles, we
6

In Regents of University of Michigan v. Ewing, 474 U.S. 214
(1985), Justice Powell suggested in a concurrence that “substantive due process rights are created only by the Constitution.” Id.
at 229 (Powell, J., concurring) (emphasis added). Since then, however, this circuit has held that substantive due process rights can
be derived from state law, and are therefore treated in the same
manner as rights that give rise to a procedural due process claim.
See Schaper v. City of Huntsville, 813 F.2d 709, 718 (5th Cir.
1987).

App. 14
have rejected claims by professors who argue that positive annual reviews create a de facto right to tenure.
See Whiting, 451 F.3d at 345 (“[P]ositive annual reviews do not serve to generate a property interest in
tenure.”); Staheli, 854 F.2d at 124 (rejecting a professor’s claim that the University had an “informal tenure
obligation” because he met the policy’s speciﬁc standards of excellence and his department chairman had
“assured him that his progress [toward tenure] was
satisfactory”).
Though an automatic or non-discretionary tenure
policy may give rise to a protected property interest,
see Honore v. Douglas, 833 F.2d 565 (5th Cir. 1987), the
University’s policies and guidelines clearly indicated
that Wigginton was not guaranteed tenure. The policies and guidelines explained that even professors who
meet the tenure criteria may not be “automatically ﬁtted or needed to serve the present and future needs of
the University’s programs.” Moreover, Wigginton’s tenure evaluation process was based on a qualitative assessment, and the policies and guidelines made clear
that he was not guaranteed tenure simply by fulﬁlling
a speciﬁc set of numerical criteria. Id. The University’s
tenure system thus demonstrates the “inexorable internal logic” of a tenure system: “The whole purpose of
the distinction between tenured and non-tenured faculty [is] to give the University discretion over the employment of non-tenured teachers.” Staheli, 854 F.2d at
124–25.
The district court acknowledged that Wigginton
did not have a protected property interest in

App. 15
“continued employment,”7 but it concluded that he presented sufﬁcient evidence to establish a different kind
of protected interest—an interest in “a fair meritbased inquiry free from irrationality as to whether he
should receive tenure and promotion.” We hold that the
district court erred in denying defendants’ motion for
qualiﬁed immunity because there was neither controlling authority nor a robust consensus of persuasive authority that placed Wigginton’s rights beyond debate.
See Morgan, 659 F.3d at 371–72, 382; Pearson v. Callahan, 555 U.S. 223, 242 (2009) (permitting courts to determine whether a right is clearly established before
determining whether a constitutional violation occurred).
In Klingler v. University of Southern Mississippi,
an unpublished decision issued in 2015, we observed
that Mississippi law recognizes that an employee’s
“contract rights . . . constitute enforceable property interests, and ‘employee manuals become part of the employment contract, creating contract rights to which
employers may be held.’ ” 612 F. App’x 222, 227–28 (5th
Cir. 2015) (footnote omitted) (ﬁrst citing Univ. of Miss.
Med. Ctr. v. Hughes, 765 So. 2d 528, 536 (Miss. 2000);
7

It is well-established that a tenure-track employee in Mississippi does not have a property interest in continued employment. See Whiting, 451 F.3d at 344 (“Mississippi law is clear that
neither state legislation nor state regulations create a legitimate
expectation of continued employment for a non-tenured faculty
member.”); Wicks, 536 So. 2d at 23 (citing Miss. Code. Ann. § 37101-15(f ) for the principle that state law “does not create a legitimate expectation of continued employment for a non-tenured
employee”).

App. 16
then quoting Whiting, 451 F.3d at 345). We have also
been clear, however, that not all employment contracts
or manuals rise to a vested property right. Protected
property interests are “not incidental to public employment,” Muncy v. City of Dallas, 335 F.3d 394, 398 (5th
Cir. 2003), and the Mississippi Court of Appeals has
explicitly held that “[t]he mere existence of a faculty
handbook does not create [a protected property interest].” Suddith v. Univ. of S. Miss., 977 So. 2d 1158, 1171
(Miss. Ct. App. 2007) (emphasis added). “In determining whether statutes and regulations limit ofﬁcial discretion, the Supreme Court has explained that we are
to look for ‘explicitly mandatory language. . . .’ ”
Ridgely v. FEMA, 512 F.3d 727, 735 (5th Cir. 2008)
(quoting Ky. Dep’t of Corrs. v. Thompson, 490 U.S. 454,
463 (1989)). In other words, “[i]t matters what the
handbook actually says.” Suddith, 977 So. 2d at 1172.
Wigginton fails to cite “explicitly mandatory language” in his tenure policies that created a clearlyestablished property interest. See Ridgely, 512 F.3d at
735. To support his claim, he points to the University’s
“understanding that good faith is a requirement for all
facets of [the tenure] policy.” He also observes that the
University’s policies and guidelines established speciﬁc criteria for tenure, arguing that the defendants
were required to apply that criteria in a consistent
manner.
We have rejected substantive due process claims
brought by tenure-track employees who assert that
similar contractual language or tenure procedures
gave rise to a clearly-established protected property

App. 17
interest. In Klingler, for example, citing Whiting, 451
F.3d at 346, we rejected a tenure-track employee’s
claim that he had a protected property interest in “satisfy[ing] the tenure criteria” promulgated by his employer. 612 F. App’x at 228. Like Wigginton, the
plaintiff in Klingler was employed by a university with
a discretionary tenure policy, which meant that “the
decision over his continued employment [was] entirely
within the discretion of the board.” Id. Because Klingler had no “legitimate expectation of attaining tenure,”
we held that “[i]t follows, a fortiori, that Klingler could
have no legitimate expectation in an opportunity to
satisfy the tenure criteria.” Id. (ﬁrst emphasis added).
We have also held that a university’s failure to follow
its own internal rules does not always establish to a
due process violation. See Levitt v. Univ. of Tex. at El
Paso, 759 F.2d 1224, 1230 (5th Cir. 1985). And, outside
of this circuit, courts have resisted the efforts of plaintiffs to “construct a property interest out of procedural
timber.” Bunger v. Univ. of Okla. Bd. of Regents, 95 F.3d
987, 990–91 (10th Cir. 1996). Against this backdrop,
Wigginton fails to demonstrate that the language in
his contract that allegedly guaranteed him a “fair process of tenure review” gave rise to a clearly-established
property right.
Wigginton cites a number of additional cases to
support his claim that his constitutional rights were
clearly established, but those cases are similarly unavailing. As the party defending against a claim of qualiﬁed immunity, Wigginton bears the burden of
demonstrating that clearly-established law placed

App. 18
defendants on notice that they were violating his protected property interest. Morrow v. Meachum, 917 F.3d
870, 874 (5th Cir. 2019). The cases he relies upon do not
deﬁne his asserted property right with sufﬁcient particularity to defeat defendants’ qualiﬁed immunity defense. See Morgan, 659 F.3d at 372.
First, though Wigginton cites Honore v. Douglas to
support his claim that his property interest was clearly
established, that case involved an automatic tenure
process—not the discretionary process at issue here.
833 F.2d at 569. Likewise, in Spuler, we rejected the
plaintiff ’s argument that his employment manual established a property interest in a “reasonable expectation of achieving tenure if he was qualiﬁed.” 958 F.2d
at 106. We held that the handbook, which gave the administrators the right to grant or deny tenure as they
chose, “bestowed no contractual rights on [plaintiff ]
and no concomitant obligations on the University.” Id.
at 107. And though we recognized that employment
contracts may create clearly-established property
rights in Klingler, that case dismissed a claim that was
similar to Wigginton’s, further undermining Wigginton’s argument that defendants were on notice of
his constitutional rights. 612 F. App’x at 227 (holding
that plaintiff had no property interest in satisfying the
tenure criteria outlined in his employment handbook).
Moreover, to the extent that the district court relied upon our decision in Harrington v. Harris to conclude that Wigginton’s property right was clearly
established, there are several distinguishing circumstances in that case that set it apart from Wigginton’s.

App. 19
In Harrington, a group of tenured professors argued
that their employer, Texas Southern University,
awarded merit-based pay increases in an arbitrary and
capricious manner. 118 F.3d 359, 368 (5th Cir. 1997).
We assumed without deciding that plaintiffs “had a
property interest in a rational application of the university’s merit pay policy.” Id. Unlike Wigginton, however, the plaintiffs in Harrington already had tenure,
giving them a stronger claim to a clearly-established
protected property interest. See Levitt, 759 F.2d at
1231 (holding that tenured employees have a constitutional interest in continued employment). The court in
Harrington also reached its decision without conducting any analysis regarding the plaintiffs’ property
right, assuming that a property right existed because
the defendants failed to contest it. 118 F.3d at 368. In
light of these distinctions, we decline to ﬁnd that Harrington deﬁned the contours of Wigginton’s constitutional rights with enough speciﬁcity to place
defendants on notice. See Morgan, 659 F.3d at 371–72.
Wigginton cites a handful of Sixth Circuit cases
involving similar claims, but those cases also fail to
persuade. In Purisch v. Tennessee Technological University, the Sixth Circuit held that a professor “who is
eligible for tenure consideration” may have “some minimal property interest in a fair tenure review process.”
76 F.3d 1414, 1423 (6th Cir. 1996); see also Webb v. Ky.
State Univ., 468 F. App’x 515, 521 (6th Cir. 2012). But
the Sixth Circuit reached that conclusion in cases involving procedural due process claims—not the substantive due process claim at issue here. Though

App. 20
property interests may be established in the same
manner for both substantive and procedural due process claims, see Schaper v. City of Huntsville, 813 F.2d
709, 716 (5th Cir. 1987), Wigginton’s claims are materially distinct from the interests identiﬁed in Purisch
and Webb. He does not argue that the defendants failed
to provide him with the required tenure review process—indeed, he admits that he received several
rounds of appeals and hearings. In Purisch itself, the
Sixth Circuit rejected the plaintiff ’s claims, concluding
that he had been given sufﬁcient process when the
University afforded him the opportunity to present his
tenure-related grievance orally and in writing. 76 F.3d
at 1424; see also Webb, 468 F. App’x at 521–22 (holding
that plaintiff who was provided with opportunity to appeal a tenure decision was not deprived of a property
interest). Even if these out-of-circuit cases supported
Wigginton’s claim, they do not constitute robust, persuasive authority sufﬁcient to defeat a motion for qualiﬁed immunity. Morgan, 659 F.3d at 371; al-Kidd, 563
U.S. at 742.
In Spuler, we held that tenure-track employees
face an uphill battle when challenging the denial of
tenure under a discretionary tenure system. “[I]n future challenges, ofﬁcials formulating tenure decisions
in circumstances similar to the instant case will likely
beneﬁt from qualiﬁed immunity.” 958 F.2d at 108. Because Wigginton has failed to demonstrate that
clearly-established law placed defendants on notice
that he had a protected property interest, we reverse

App. 21
the district court’s denial of their qualiﬁed immunity
defense.
IV.
For the foregoing reasons, we REVERSE and
RENDER judgment in favor of defendants.

App. 22
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF MISSISSIPPI
OXFORD DIVISION
MICHAEL WIGGINTON, JR.,
V.
THE UNIVERSITY OF
MISSISSIPPI, CHANCELLOR
DANIEL W. JONES, PROVOST
MORRIS H. STOCKS,
DEAN JOHN Z. KISS, DEAN
VELMER BURTON, AND
CHAIR ERIC LAMBERT

PLAINTIFF
CIVIL ACTION NO.
3:15CV093-NBB-RP

DEFENDANTS

MEMORANDUM OPINION
(Filed Apr. 1, 2019)
This cause comes before the court upon the individual defendants’ Renewed Motion for Judgment as a
Matter of Law and, Alternatively, for New Trial and to
Alter and Amend Judgment. Upon due consideration
of the motion, response, exhibits, and applicable authority, the court is ready to rule.
Factual and Procedural Background
The plaintiff, Dr. Michael Wigginton, ﬁled this lawsuit against the University of Mississippi and named
administrators following the denial of Wigginton’s tenure and promotion application and his subsequent termination from the University. A ﬁve-day jury trial was
held wherein witness testimony and evidentiary

App. 23
documents were presented. The court submitted two of
Dr. Wigginton’s original claims to the jury – an age discrimination claim and a substantive due process claim.
The jury found in favor of the University on the age
discrimination claim and for Dr. Wigginton against the
individual defendants on the due process claim, specifically ﬁnding that each individual defendant’s decision
to deny Dr. Wigginton’s tenure and promotion application was arbitrary and capricious and “literally irrational.” The jury found the defendants liable to Dr.
Wigginton for $18,000 in lost wages and $200,000 in
past and future pain and suffering, inconvenience,
mental anguish, and loss of enjoyment of life.
Dr. Wigginton was hired in 2008 as an assistant
professor in a tenure-track position in the University’s
Department of Legal Studies. Neither his employment
agreement nor subsequent agreements contained any
language excluding the incorporation of external documents, and the parties agreed that the tenure and promotion review process was governed by the University,
School of Applied Sciences, and Department Guidelines. The guidelines from the School and Department
were designed to supplement the University Guidelines and provide more speciﬁc guidance regarding the
criteria to be used to evaluate a professor’s application
for tenure and promotion. Under the University Guidelines, tenure applicants are evaluated on the quality of
their research and scholarly activity, teaching, and service. All applicants are required to assemble a dossier
summarizing his or her relevant activity and work

App. 24
product demonstrating satisfaction of these three factors.
The University Guidelines outline the procedure
required of all tenure-track professors which begins
with a ﬁve-year probationary period prior to tenure eligibility. The guidelines provide:
Each candidate must serve a probationary period of ﬁve years of continuous or accumulated
full-time employment at The University of
Mississippi in a tenure-track professorial position. . . . The sixth year shall be the year of
formal review. . . . A person who is not
awarded tenure during his or her sixth year of
service shall be given a terminal contract for
his or her seventh year of service. . . . Consideration for tenure shall be mandatory.
Once a professor becomes eligible for tenure and
promotion, he or she is to be notiﬁed in writing by May
15 of that year and is to meet with the chair of the department no later than July 1 of that year to discuss
the submission of the dossier. The applicant also provides the chair with a list of ﬁve external reviewers
from which the chair is to select three as well as two
external reviewers from the chair’s own list. The applicant is to submit the dossier no later than September
1 of that year.
Upon submission of the applicant’s dossier, the
tenured and associate professors of the department
meet and vote as to whether the applicant should be
granted tenure and promotion. This vote is provided to
the appropriate department chair who reviews the

App. 25
tenure application and makes a recommendation to
the appropriate school dean. The school dean also receives a recommendation from a separate advisory
committee. The school dean reviews the application
and makes a recommendation to the graduate school
dean who in turn makes a recommendation to the
provost.
The Tenure and Promotion Review Committee reviews the application to ensure that the process has
been properly conducted and submits its ﬁndings to
the provost. The provost then makes his recommendation. In the event of a negative recommendation from
the provost, the applicant has ﬁve days to appeal and
request a hearing from the Tenure and Promotion Appeals Committee, which will further assess whether
the negative recommendations were based on impermissible grounds, including being arbitrary and capricious. Following a formal hearing, the Appeals
Committee’s ﬁndings are sent to the Chancellor, who
makes the ﬁnal recommendation to the Board of Trustees of the Mississippi Institutions of Higher Learning
(“IHL Board”). The IHL Board makes the ultimate decision to award tenure.
The testimony and evidence produced at trial
showed that Dr. Wigginton complied with this process,
timely preparing and submitting a dossier which summarized his relevant teaching, service, and scholarly
activity to demonstrate why he was entitled to tenure
and promotion. Dr. Wigginton’s dossier included ﬁve
years of glowing reviews from his superiors which, he
asserts, conﬁrmed that he had met and exceeded the

App. 26
requirements necessary for an award of tenure and
promotion.
The tenured members of the Department of Legal
Studies voted ﬁve to two in favor of a grant of tenure
and four to two in favor of promotion.1 Despite the faculty vote in favor of Dr. Wigginton, Defendant Eric
Lambert, Chair of the Department of Legal Studies,
recommended against granting tenure and promotion.
His recommendation was considered by the Dean’s
Committee, which voted three to two in favor of tenure
and promotion. Like Lambert, Defendant Velmer Burton, Dean of the School of Applied Sciences, who is no
longer employed by the University, recommended,
against the favorable recommendations of the faculty
and committee, that Dr. Wigginton should not receive
tenure. Defendant John Kiss, Dean of the Graduate
School, followed suit and likewise recommended
against the grant of tenure and promotion.
Dr. Wigginton’s application was then reviewed by
the Tenure and Promotion Review Committee, which
questioned the recommendations of Defendants Lambert, Burton, and Kiss as to arbitrariness and capriciousness and issued a report making no ofﬁcial
ﬁnding in this respect. Defendant Morris Stocks, the
Provost, who is no longer in that position, followed the
other defendants in recommending against a grant of
tenure and promotion.
1

One tenured professor was an assistant professor, not an
associate, and therefore not included in the latter vote as to
whether Dr. Wigginton should be promoted.

App. 27
Dr. Wigginton then ﬁled a request for a hearing
with the Tenure and Promotion Appeals Committee. In
its report to the Chancellor dated April 17, 2014, the
Appeals Committee noted that in reviewing the defendants’ recommendations against tenure and promotion, it considered the following deﬁnition of “arbitrary
and capricious": that “an action [is arbitrary and capricious] if the agency entirely failed to consider an
important aspect of the problem, or offered an explanation for its decision that runs counter to the evidence
before the agency, or is so implausible that it could not
be ascribed to a difference in view or the product of
agency expertise.” Docket 172-15. The Committee then
reported its ﬁndings as follows:
In this context, the Committee felt that the
agency (the University) as represented by the
two department chairs preceding Dr. Lambert
during Dr. Wigginton’s probationary period
had provided annual evaluations indicating
satisfactory or excellent progress towards tenure and promotion for the previous 5 years,
leading Dr. Wigginton and, the Committee
felt, any reasonable person to expect that they
would be granted tenure and promotion. The
Committee also found that the ﬁnal selection
of external reviewers was entirely within the
University’s control, and that the selection of
a reviewer from Dr. Wigginton’s dissertation
committee, entirely at odds with university
policy, was a University decision. As such, the
Committee ﬁnds the negative recommendation on tenure and promotion to
be arbitrary and capricious in that the

App. 28
University failed to consider an important aspect of the problem, namely that the candidate was led to believe by a series of
supportive annual reviews that he was on
track to be successful in tenure and promotion, and that the discounting of the external
reviewer letters was inappropriate since the
reviewers were selected through the University’s own actions. The Committee recommends that Dr. Wigginton be given a written
explanation of how the department’s tenure
and promotion guidelines are interpreted and
that an extended probation period be given to
him so that he can demonstrate his ability to
meet those expectations.
Id. (Emphasis added). Disregarding the Tenure and
Promotion Appeals Committee’s ﬁnding that Dr. Wigginton’s tenure and promotion review process had been
performed in an arbitrary and capricious manner, Defendant Chancellor Dan Jones, who is no longer the
Chancellor, followed suit with the other defendants
and recommended against tenure and promotion to the
IHL Board. Jones issued a letter on June 17, 2014, advising Dr. Wigginton that his employment would be
terminated on May 10, 2015. Jones also denied Dr.
Wigginton’s request and the Committee’s recommendation that Dr. Wigginton’s probationary period be extended for a year.
Dr. Wigginton subsequently brought the instant
lawsuit alleging a number of claims, two of which were
ultimately submitted to the jury after a ﬁve-day trial:
an age discrimination claim and a substantive due

App. 29
process claim. The jury found for the University on the
age discrimination claim but found that the individual
defendants had acted arbitrarily and capriciously in
denying tenure and terminating from the University
and were liable for $18,000 in lost wages and $200,000
in past and future pain and suffering. The defendants
now renew their motion for judgment as a matter of
law notwithstanding the verdict of the jury and also
ask for the alternative relief of a new trial or a vacating
or reduction of the damages award.
Standard of Review
Federal Rule of Civil Procedure 50(b) allows a defendant to renew his motion for judgment as a matter
of law following a verdict for the plaintiff. Judgment as
a matter of law after the conclusion of trial should be
granted when “a party has been fully heard on an issue
during a jury trial and the court ﬁnds that a reasonable jury would not have had a legally sufﬁcient evidentiary basis to ﬁnd for a party on that issue[.]” Fed. R.
Civ. P. 50(a)(1). “It goes without saying that the evidence must be viewed in the light most favorable to the
nonmovant.” Montano v. Orange County, Tex., 842 F.3d
865 (5th Cir. 2016). “Moreover, consistent with the role
of the jury under the Seventh Amendment to the Constitution, it is more than well-established that all reasonable inferences are drawn in favor of the
nonmovant, with the credibility of witnesses and
weight of the evidence being within the sole province
of the jury.” Id. The court “accord[s] great deference to
the jury’s verdict when evaluating the sufﬁciency of

App. 30
the evidence.” Baltazor v. Holmes, 162 F.3d 368, 373
(5th Cir. 1998). The verdict is reversed “only if the evidence points ‘so strongly and overwhelmingly in favor
of one party that the court believes that reasonable jurors could not arrive at any contrary conclusion.’ ” Id.
(quoting Boeing v. Shipman, 411 F.2d 365, 374 (5th Cir.
1969)).
A district court may grant a new trial under Federal Rule of Civil Procedure 59(a) when such action is
necessary “to prevent an injustice.” Seibert v. Jackson
County, Miss., 851 F.3d 430, 438 (quoting United States
v. Flores, 981 F.2d 231, 237 (5th Cir. 1993)). “The decision to grant or deny a motion for new trial is a matter
for the trial court’s discretion; [and the appellate court]
will reverse its ruling only for an abuse of discretion.”
Seibert, 851 F.3d at 438. “A trial court should not grant
a new trial on evidentiary grounds unless the verdict
is against the great weight of the evidence.” Id. “In
other words, the movant must show ‘an absolute absence of evidence to support the jury’s verdict.’“ Id.
(quoting Whitehead v. Food Max of Miss., Inc., 163 F.3d
265, 269 (5th Cir. 1998)).
Analysis
Renewed Motion for Judgment
as a Matter of Law
Substantive Due Process
“The protections of the Due Process Clause,
whether procedural or substantive, only apply to deprivations of constitutionally protected property or

App. 31
liberty interests.” Klingler v. Univ. of S. Miss., 612 F.
App’x 222, 227 (5th Cir. 2015). “Without such an interest, no right to due process accrues.” DePree v. Saunders, 588 F.3d 282, 289 (5th Cir. 2009). A successful
claim for deprivation of substantive due process
requires two showings in the context of public employment: (1) that the plaintiff possessed the aforementioned property interest or right and (2) that the public
employer’s depriving of that interest was arbitrary and
capricious. Stark v. Univ. of S. Miss., 8 F. Supp. 3d 825,
841 (S.D. Miss. 2014) (citing Lewis v. Univ. of Tex. Med.
Branch at Galveston, 665 F.3d 625, 630 (5th Cir. 2011)).
The Supreme Court has held that in order “to have
a property interest in a beneﬁt, a person clearly must
have more than an abstract need or desire for it [or]
. . . a unilateral expectation of it. He must, instead,
have a legitimate claim of entitlement to it.” Bd. of Regents v. Roth, 408 U.S. 564, 577 (1972). The Court has
also held that a “person’s interest in a beneﬁt is a ‘property’ interest for due process purposes if there are such
rules or mutually explicit understandings that support
his claim of entitlement to the beneﬁt.” Perry v. Sindermann, 408 U.S. 593, 601 (1972).
The Supreme Court has acknowledged that an implied contract right precluding arbitrary state interference may qualify as a property interest protected by
the Due Process Clause2 but has also made clear that
“[p]roperty interests . . . are created and their
2

Regents of Univ. of Michigan v. Ewing, 474 U.S. 214, 22021 (1985).

App. 32
dimensions are deﬁned by existing rules or understandings that stem from an independent source such
as state law. . . .” Roth, 408 U.S. at 577. The Fifth Circuit has held accordingly, stating that “[c]onstitutionally protected property interests are created and
deﬁned by understandings that stem from an independent source such as state law” or contract. Klingler,
612 F. App’x at 227; Martin v. Mem. Hosp. at Gulfport,
130 F.3d 1143, 1147 (5th Cir. 1997).
The Fifth Circuit has stated, “In general, we have
recognized that a property interest is created where
the public entity has acted to confer, or alternatively,
has created conditions which infer, the existence of a
property interest by abrogating its right to terminate
an employee without cause.” Muncy v. City of Dallas,
Tex., 335 F.3d 394, 398 (5th Cir. 2003). The court noted,
“This abrogation may take the form of a statute, rule,
handbook, or policy which limits the condition under
which the employment may be terminated.” Id. (citing
Henderson v. Sotelo, 761 F.2d 1093, 1096 (5th Cir.
1985)). “Ultimately, however, the question of whether a
property interest exists is an individualized inquiry
which is guided by the speciﬁc nature and terms of the
particular employment at issue and informed by the
substantive parameters of the relevant state law.” Id.
In Mississippi, “employee manuals become part of
the employment contract, creating contract rights to
which employers may be held.” Klinger, 612 F. App’x at
227 (citing Whiting v. Univ. of S. Miss., 451 F.3d 339,
345 (5th Cir. 2006)); Stark, 8 F. Supp. 3d at 840. Mississippi courts have held that when an employer

App. 33
“publishes and disseminates to its employees a manual
setting forth the proceedings which will be followed in
the event of an employee’s infraction of rules, and there
is nothing in the employment contract to the contrary,
then the employer will be required to follow its own
manual in disciplining or discharging employees.” Bobbitt v. The Orchard, Ltd., 603 So. 2d 356, 357 (Miss.
1992).
The substantive component of the Due Process
Clause “protects individual liberty against certain government actions regardless of the fairness of the procedures used to implement them.” Collins v. City of
Harker Heights, Tex., 503 U.S. 115, 125 (1992). The
Fifth Circuit has explicitly acknowledged that the substantive process due a nontenured applicant for tenure
and promotion, is “the exercise of professional judgment, in a non-arbitrary and non-capricious fashion.”
Spuler v. Pickar, 958 F.2d 103, 107 (5th Cir. 1992).
The defendants move the court to set aside the
jury’s verdict and grant judgment as a matter of law in
their favor based on their position that Dr. Wigginton
had no protected property interest in a grant of tenure
because under Mississippi law “there is no legitimate
expectation of employment for a nontenured faculty
member that creates a protected interest.” Whiting v.
Univ. of S. Miss., 62 So. 3d 907, 915 (Miss. 2011). Dr.
Wigginton does not dispute this point but instead accurately asserts that under Mississippi law, non-tenured employees’ “contract rights do constitute
enforceable property interests.” Klingler, 612 F. App’x

App. 34
at 227 (citing Univ. of Miss. Med. Ctr. v. Hughes, 765 So.
2d 528, 536 (Miss. 2000)).
Dr. Wigginton asserts that he presented sufﬁcient
evidence to establish a constitutionally protected contractual property interest in the fair administration of
his tenure and promotion review process which was required to be free from irrationality and arbitrary or capricious decisions, and further that his tenure and
promotion review process was not, in fact, free from irrationality and was conducted in an arbitrary and capricious manner, thus depriving him of his
constitutionally protected interest. The jury agreed.
The court ﬁnds that based upon the evidence presented at trial, it is clear there existed mutually explicit understandings between Dr. Wigginton and the
University which were memorialized in the University,
School, and Department’s tenure policies and guidelines and incorporated through Dr. Wigginton’s employment agreement, which contained no language
excluding external documents. In accordance with
these mutually explicit understandings, Dr. Wigginton
was eligible for and entitled to a fair merit-based inquiry free from irrationality as to whether he should
receive tenure and promotion following his satisfactory
completion of the ﬁve-year probationary period. The
Fifth Circuit has recognized that a plaintiff may have
a property interest in a rational application of a university merit-based policy. Harrington v. Harris, 118
F.3d 359, 368 (5th Cir. 1997).

App. 35
Based on the applicable authority and the evidence produced at trial, it is clear that Dr. Wigginton
successfully established an enforceable and constitutionally protected contractual property interest as contemplated by substantive due process jurisprudence
which entitled him to a fair tenure and promotion review process based on professional judgment free from
irrationality and arbitrary and capricious decisionmaking. Dr. Wigginton has satisﬁed the ﬁrst prong of a
successful substantive due process claim.
The court also ﬁnds that because Dr. Wigginton’s
claim is that of a contractual property interest entitling him to a fair tenure and promotion review process
– as opposed to a claim of entitlement to a grant of tenure itself – the defendants’ argument that only the ﬁnal decision makers – that is the Chancellor in
nominating for tenure and the IHL Board in actually
awarding the grant of tenure – could be held liable is
without merit. Each of the defendants was involved in
the tenure and promotion review process and each
owed Dr. Wigginton a review and recommendation
based on professional judgment free from irrationality
and arbitrary and capricious decision-making. In this
context it is irrelevant that the Chancellor and the IHL
Board are the ﬁnal decision makers.
The court now examines whether sufﬁcient evidence was presented to support Dr. Wigginton’s claim
that the defendants deprived him of this constitutionally protected property interest. “If state action is so
arbitrary and capricious as to be irrational, its infringement on a constitutionally protected interest

App. 36
may violate substantive due process rights.” Neuwirth
v. Louisiana State Bd. of Dentistry, 845 F.2d 553, 558
(5th Cir. 1988). The jury was instructed accordingly
and found that Dr. Wigginton’s denial of tenure and
promotion was literally irrational. The court ﬁnds
there was sufﬁcient evidence presented to warrant
such a verdict by reasonable jurors.
As mentioned, Dr. Wigginton received glowing reviews from his superiors during his ﬁve-year probationary period at the University. While this is
insufﬁcient under applicable authority to establish an
expectation of tenure amounting to a property interest,3 it does provide evidence of the arbitrary and capricious nature of Dr. Wigginton’s tenure promotion
and review process, and such was noted by the University’s own Tenure and Promotion Appeals Committee.
The Committee stated:
[T]he Committee felt that the agency (the
University) as represented by the two department chairs preceding Dr. Lambert during Dr.
Wigginton’s probationary period had provided
annual evaluations indicating satisfactory or
excellent progress towards tenure and promotion for the previous 5 years, leading Dr. Wigginton and, the Committee felt, any
reasonable person to expect that they would
be granted tenure and promotion. . . . As
such, the Committee ﬁnds the negative
3

See, e.g., Whiting, 451 F.3d at 345 (“[T]he Mississippi Supreme Court has held that positive annual reviews do not serve
to generate a property interest in tenure.”) (citing Wicks v. Miss.
Valley State Univ., 536 So. 2d 20, 23 (Miss. 1988)).

App. 37
recommendation on tenure and promotion to
be arbitrary and capricious in that the University failed to consider an important aspect
of the problem, namely that the candidate was
led to believe by a series of supportive annual
reviews that he was on track to be successful
in tenure and promotion.
Docket 172-15.
The jury also considered testimony which suggested that the defendants baselessly discounted the
overwhelmingly positive opinions of external reviewers, stating the reviewers were of poor quality and had
tenuous conﬂicts of interest. The external reviewer selection process was entirely in the control of the School
of Applied Sciences and in accordance with the University Guidelines; also the external reviewers were approved by the Ofﬁce of the Dean of the School.
The jury was also presented with the University’s
Tenure and Promotion Appeals Committee’s ﬁndings
as to this matter. The discounting of the reviewers was
speciﬁcally noted by the Committee as one of its reasons for ﬁnding an arbitrary and capricious recommendation against tenure. The Committee stated:
The Committee also found that the ﬁnal selection of external reviewers was entirely within
the University’s control, and that the selection
of a reviewer from Dr. Wigginton’s dissertation committee, entirely at odds with university policy, was a University decision. As such,
the Committee ﬁnds the negative recommendation on tenure and promotion to be

App. 38
arbitrary and capricious in that the University failed to consider an important aspect of
the problem, namely . . . that the discounting
of the external reviewer letters was inappropriate since the reviewers were selected
through the University’s own actions.
Docket 172-15. A reasonable juror could take note of
the apparent disingenuousness in the defendants’ discounting the opinions of the reviewers and ignoring the
Committee’s ﬁndings, as the facts suggest that each individual defendant failed to exercise professional judgment and instead simply rubber-stamped the
recommendations of the other defendants.
The defendants argue that Dr. Wigginton failed to
demonstrate sufﬁcient scholastic achievement and impact during his probationary period to warrant an
award of tenure. The evidence, however, showed that
conﬂicting standards for assessing scholarship among
the University, School, and Department policies were
applied arbitrarily. When Dr. Wigginton was hired, the
University provided him with documents entitled “The
University of Mississippi Tenure Policies and Procedures” (“University Guidelines”), “The University of
Mississippi School of Applied Sciences Guidelines and
Procedures for Annual, Tenure, Promotion, and PostTenure Reviews” (“School Guidelines”), and “Legal
Studies Guidelines for Tenure and Promotion” (“Department Guidelines”). The evidence showed that
throughout his probationary period Dr. Wigginton was
repeatedly informed by his direct supervisor that he
should follow the Department Guidelines.

App. 39
The Department Guidelines provided in pertinent
part:
Evidence [of scholarly activity] will include
books or journals published by commercial or
university presses; articles in refereed or
other scholarly professional journals with
state, regional, national, or international
reputations; papers presented at scholarly
conferences; discussant and/or chair at conferences, seminars, workshops, symposiums, etc.;
organizer of professional workshops or seminars; editorial responsibilities within one’s
discipline; publications of manuals, text chapters, monographs or media materials; research grants and nonresearch funding and
contracts. The publication of a textbook
within one’s discipline through a recognized
professional press and articles published
within the genres of one’s specialization in
professional journals will be considered for
tenure/promotion.
Docket 172-8. Testimony revealed, however, that when
Dr. Wigginton’s application for tenure and promotion
was evaluated by the defendants, they used other
guidelines regarding scholarly activity. These later-applied “School Guidelines” provided in pertinent part:
Within the School of Applied Sciences, research and scholarly activity is demonstrated
primarily through the publication of research
papers in refereed, academic journals with international, national, or regional reputations
and publication of scholarly books by commercial or university presses. Other research

App. 40
activity may also be manifest in: non-refereed
journals; professional journals; proceedings
papers; presentations at scholarly meetings;
editorial work for refereed academic journals;
research grants; contracts which support continued research; and other work relevant to
the candidate’s academic discipline.
Docket 172-7.
The application of the more restrictive School
Guidelines provided the defendants with an alleged
basis to discount some of Dr. Wigginton’s scholarly
work such as textbook publication as well as certain
journal articles and research grants. The evidence also
showed that certain defendants utilized an even narrower view of scholarship than that contemplated by
the more restrictive School Guidelines.
It was further revealed that defendants expected
Dr. Wigginton to participate in and make presentations at speciﬁc conferences not mentioned in the
guidelines. For instance, Defendant Lambert’s recommendation against tenure asserts that Dr. Wigginton
should have been required to participate in more
American Society of Criminology and Academy of
Criminal Justice Sciences events; yet Dr. Wigginton
was never advised of this very speciﬁc expectation during his ﬁve-year probationary period, and many of the
conferences Dr. Wigginton did attend were discounted
by the defendants though Dr. Wigginton was led to believe these would be credited toward his scholarship.

App. 41
Testimony also revealed that the defendants relied on Dr. Wigginton’s Google Scholar score as a statistic to determine whether an applicant should be
granted tenure and promotion. The Google Scholar
score requirement is not mentioned in the applicable
guidelines, and the jury heard testimony from several
witnesses suggesting that no applicant for tenure and
promotion in the Department of Legal Studies had
ever been held to said standard.
The defendants provided no explanation as to why
the School Guidelines were applied exclusively over
the Department Guidelines. The defendants simply argued that it was Dr. Wigginton’s responsibility to be familiar with all guidelines and determine which ones
applied. Dr. Wigginton testiﬁed that he was repeatedly
informed by his direct supervisor during his probationary period that the Department Guidelines applied
and that accordingly he strictly adhered to the requirements for tenure and promotion for professors in the
Department. The Department Guidelines were drafted
speciﬁcally for reference by professors within the Department. Despite the defendants’ position that Dr.
Wigginton was responsible for complying with all
guidelines, common sense dictates that guidelines designed speciﬁcally for the Department would be the
logical guidelines for a professor within that Department to follow as opposed to the School Guidelines, especially considering he was directed to follow those
guidelines by his direct supervisor.
Reasonable jurors could and did ﬁnd disingenuousness in the defendants’ actions regarding the

App. 42
arbitrary application of potentially conﬂicting guidelines as well as certain speciﬁc expectations found nowhere in the guidelines such as participation in certain
conferences and the Google Scholar score matter and
could determine that the defendants simply manufactured an excuse to deny Dr. Wigginton tenure, forcing
him out of the University to make way for new staff.4
Evidence was also presented which revealed that
certain defendants characterized the faculty majority
votes in favor of Dr. Wigginton’s tenure and promotion
as “split,” suggesting that these defendants did so to
discredit the recommendation of the Department of Legal Studies faculty vote in support of Dr. Wigginton.
The defendants argue that the votes in fact were
“split,” and that it was not inappropriate to characterize them as such. While the votes were not unanimous,
nevertheless they were majority votes in favor of tenure and promotion. To characterize such votes as “split”
in the defendants’ recommendations against tenure
could appear to a reasonable juror as a deliberate attempt to discredit these majority votes in Dr. Wigginton’s favor.
In sum, sufﬁcient documentary evidence and testimony were presented to the jury which suggested, inter alia, that the individual defendants discounted a
4

Testimony suggested that Defendant Dean Burton, who
came into the University toward the end of Dr. Wigginton’s probationary period and is no longer employed by the University, repeatedly expressed his desire to terminate Dr. Wigginton and
that he intended to move the makeup of the department away
from “practitioner” professors toward more academic professors.

App. 43
majority faculty vote in favor of tenure, arbitrarily discounted relevant scholarship, held Dr. Wigginton to
conﬂicting standards and undocumented expectations
without explanation and did so against its own internal Review and Appeals Committees’ concerns and recommendations in this regard. The evidence and
testimony presented also showed that the defendants
improperly discounted the legitimacy of Dr. Wigginton’s external reviewers although the reviewers
were pre-approved by the University, and further, that
they deliberately ignored the Tenure and Promotion
Appeals Committee’s explicit ﬁnding that the recommendations against granting Dr. Wigginton tenure and
promotion had been based on arbitrary and capricious
grounds. The jury agreed with that ﬁnding. In accordance with the “especially deferential” standard of review afforded jury verdicts challenged by a motion for
judgment as a matter of law,5 the court ﬁnds the evidence presented at trial more than sufﬁcient to support the jury’s unanimous decision that the defendants
failed to exercise professional judgment and made arbitrary and capricious decisions which had “no rational
connection between the known facts and the decision
or between the found facts and the evidence.” Neuwirth, 845 F.2d at 558.

5

Carley v. Crest Pumping Technologies, LLC, 890 F.3d 575,
577 (5th Cir. 2018).

App. 44
Qualiﬁed Immunity
Qualiﬁed immunity protects state actors “from liability for civil damages insofar as their conduct does
not violate clearly established statutory or constitutional rights of which a reasonable person would have
known.” Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982).
When qualiﬁed immunity is asserted, as has been done
here, the court must make two determinations. The
court considers whether the evidence demonstrates a
violation of a constitutional right. Ramirez v. Martinez,
716 F.3d 369, 375 (5th Cir. 2013). The court additionally must determine whether the right at issue was
clearly established at the time of the defendants’ alleged misconduct. Id. The constitutional right must be
sufﬁciently clear to put a reasonable ofﬁcial on notice
that certain conduct violates that right. Sanchez v.
Swyden, 139 F.3d 464, 466 (5th Cir. 1998).
In the present case, as to whether the constitutional right at issue was clearly established at the time
of the violation, Dr. Wigginton accurately notes that in
1987 the Fifth Circuit recognized that a state employee
has a substantive due process right to be free from arbitrary and capricious deprivations of state employment related property interests. Honore v. Douglas,
833 F.2d 565, 568 (5th Cir. 1987). Then in 1992 the
Fifth Circuit recognized that the substantive process
due tenure applicants with a property interest is the
“exercise of professional judgment, in a non-arbitrary
and non-capricious fashion.” Spuler, 958 F.2d at 107.

App. 45
A public employee may demonstrate a constitutionally protected property interest by showing that it
is founded on a “legitimate claim of entitlement based
on mutually explicit understandings.” Honore, 833 F.2d
at 568 (quoting Roth, 408 U.S. at 577). The existence of
such an interest must be determined by reference to
state law. Muncy, 335 F.3d at 398. As addressed under
the substantive due process analysis above, “[u]nder
Mississippi law, nontenured employees do not have a
legitimate expectation of continued employment; [b]ut
their contract rights do constitute enforceable property
interests, and employee manuals become part of the
employment contract, creating contract rights to which
employers may be held.” Klingler, 612 F. App’x at 227.
Dr. Wigginton was contractually obligated to apply
for tenure and promotion, resign, or be terminated. Dr.
Wigginton’s employment agreement incorporated mutually explicit understandings regarding a formal set
of policies and procedures by which his tenure and promotion application would be reviewed, thus establishing an enforceable and protected property interest to a
fair tenure and promotion review process.
In light of the relevant case law, a reasonable ofﬁcial would have been aware that he cannot make irrational decisions and fail to exercise professional
judgment in denying an application for tenure and promotion. The court ﬁnds that the constitutional right at
issue here was clearly established at the time of the
defendants’ misconduct. The defendants should have
been aware that they were required to exercise professional judgment and make a rational decision that was

App. 46
not arbitrary and capricious. If for no other reason, the
defendants should have been aware of their duties
based simply on the fact that the University has established two administrative bodies, the Tenure and Promotion Review Committee and the Tenure and
Promotion Appeals Committee, created for the speciﬁc
purpose of ensuring that the tenure and promotion review process is free of arbitrary and capricious decision-making. The former committee questioned the
arbitrary nature of the process as applied to Dr. Wigginton’s application, and the latter explicitly found arbitrary and capricious decision-making; yet the
defendants ignored these ﬁndings and each recommended against a grant of tenure and promotion.
Having determined that this case involves a
clearly established constitutional right of which a reasonable ofﬁcial would have known, the court will now
consider whether the evidence demonstrates a violation of that right. This analysis has already been set
forth above. The jury has resolved the question of fact
as to whether the individual defendants arbitrarily
and capriciously deprived Dr. Wigginton of a constitutional property right, unanimously ﬁnding that the defendants failed to exercise professional judgment and
made decisions that were literally irrational. The court
has found the evidence legally sufﬁcient to support the
verdict.
In Honore v. Douglas, the Fifth Circuit noted that
“a federal court is generally not the appropriate forum
in which to review the multitude of personnel decisions
that are made daily by public agencies.” Honore, 833

App. 47
F.2d at 569. The court added, however, that “[t]his
measure of judicial restraint . . . does not require slavish deference to a university’s arbitrary deprivation of
a vested property right.” Id. This court ﬁnds, in accordance with the applicable case law, the evidence presented at trial, and the jury’s verdict, that the
individual defendants arbitrarily deprived Dr. Wigginton of a clearly established constitutional right of
which a reasonable ofﬁcial would have known. The individual defendants are, therefore, not entitled to qualiﬁed immunity. The court ﬁnds that the defendants’
motion for judgment as a matter of law is denied.
Motion for a New Trial
As alternative relief to their motion for judgment
as a matter of law, the defendants seek a new trial
based on allegedly improper jury instructions. The defendants argue that the court failed to instruct the jury
of the appropriate standard by which it could ﬁnd a
deprivation of a due process right. They further argue
that the court erred in answering a written question
proposed by the jury regarding the deﬁnition of “due
process.”
“The district court has broad discretion in formulating the jury charge.” Deines v. Tex. Dept. of Protective
and Regulatory Services, 164 F.3d 277, 279 (5th Cir.
1999). The court’s instructions to the jury, considered
as a whole, must instruct the jurors so that they understand the issues to be tried and are not misled.
Frosty Lands Foods v. Refrigerated Transport, 613 F.2d

App. 48
1344, 1348 (5th Cir. 1980). “[A] challenge to jury instructions ‘must demonstrate that the charge as a
whole creates substantial and ineradicable doubt
whether the jury has been properly guided in its deliberations.’ ” Deines, 164 F.3d at 279 (quoting Mooney v.
Aramco Services Co., 54 F.3d 1207, 1216 (5th Cir.
1995)).
The court instructed the jury, in part, that Dr. Wigginton had “a right free from that [tenure and promotion] process being made in an arbitrary and capricious
way and free of irrationality on the part of the defendants.” Citing Lewis v. Univ. of Tex. Med. Branch at
Galveston, 665 F.3d 625, 630 (5th Cir. 2011), the defendants assert that to be “arbitrary and capricious,” a
decision must have “no rational connection between
the known facts and the decision or between the found
facts and the evidence.” Shortly after the instruction
quoted above, the court further instructed as follows:
“To be arbitrary and capricious, the Defendant Jones’
decision must have been literally irrational. There
must have been no rational connection between the
known facts and the decision or between the found
facts and the decision.” The court added, “And the
plaintiff must prove, by a preponderance of the evidence, that the Defendant Jones’ decision not to nominate the plaintiff for tenure was irrational.”
The defendants argue that the initial instruction
quoted above is an inaccurate statement of the law and
that the court improperly instructed regarding the defendants’ exercise of professional judgment. The defendants admit that the court later expounded on the

App. 49
original instruction regarding the arbitrary and capricious standard and actually included the very language the defendants argue should have been
included. The defendants nevertheless maintain that
the jury was improperly instructed. They fail to note,
however, that the majority of the instructions given in
this case were in fact proposed by the defendants and
that the court speciﬁcally gave the defendants’ own requested substantive due process instruction and business judgment instruction.
The court ﬁnds that the initial instruction that Dr.
Wigginton had “a right free from that [tenure and promotion] process being made in an arbitrary and capricious way and free of irrationality on the part of the
defendants” is not an incorrect statement of the law;
and even if it were, the additional instruction expounding on the arbitrary and capricious standard would
cure any confusion. The court, however, ﬁnds no legitimate basis for confusion. “There is no error if the instructions, when taken together, properly express the
law applicable to the case, even though an isolated
clause is inaccurate, ambiguous, incomplete, or otherwise subject to criticism.” Vicksburg Furniture Mfg.,
Ltd. v. Aetna Cas. and Sur. Co., 625 F.2d 1167, 1169 (5th
Cir. 1980).
The court also ﬁnds no merit to the defendants’ argument that the court’s response to the jury’s inquiry
regarding due process did not accurately state the law
or address the jury’s confusion. During jury deliberations, the jury sent a note to the court reading, “Clarify
exactly what is due process.” The court responded in

App. 50
writing: “Due process is a legal term and I consider basically that the words themselves in their context are
their own best deﬁnition. Thank you and please continue your deliberation.” The court ﬁnds that it provided an appropriate response and that there is no
merit to the defendants’ argument.
The defendants have not demonstrated that the
charge as a whole creates substantial and eradicable
doubt as to whether the jury received proper guidance
for their deliberations. Accordingly, the court ﬁnds that
the jury was properly instructed. The defendants’ alternative motion for new trial based on improper jury
instructions is denied.
Motion to Amend Judgment
The defendants also move the court to vacate the
damages awarded by the jury due to an alleged lack of
evidentiary basis or alternatively to reduce the award
to nominal damages only. The jury awarded Dr. Wigginton $100,000 in past pain and suffering, inconvenience, mental anguish, and loss of enjoyment of life and
$100,000 in future pain and suffering, inconvenience,
mental anguish, and loss of enjoyment of life. The defendants argue that the evidence presented was insufﬁcient to support the jury’s award of damages for pain
and suffering. The court disagrees.
The Fifth Circuit has stated that it “review[s] with
deference damage awards based on intangible harm,
because the harm is subjective and evaluating it depends considerably on the demeanor of witnesses.”

App. 51
Tureaud v. Grambling State Univ., 294 F. App’x 909,
916 (5th Cir. 2008) (quoting Giles v. Gen. Elec. Co., 245
F.3d 474, 487-88 (5th Cir. 2001)). “It is true that compensatory damages for emotional distress may only be
awarded when speciﬁc evidence of actual harm is introduced.” Williams v. Trader Publishing Co., 218 F.3d
481, 486 (5th Cir. 2000). The Fifth Circuit “has held,
however, that the testimony of the plaintiff alone may
be enough to satisfy this requirement.” Id. (citing Migis
v. Pearle Vision, Inc., 135 F.3d 1041, 1046 (5th Cir.
1998); Forsyth v. City of Dallas, 91 F.3d 769, 774 (5th
Cir. 1996)).
In Williams v. Trader Publishing Co., the Fifth Circuit upheld a compensatory damages award of
$100,000 for emotional distress based solely on the
plaintiff ’s testimony regarding severe emotional distress, sleep loss, severe weight loss, and beginning the
habit of smoking. Id. Again recognizing that “a plaintiff ’s testimony alone may be sufﬁcient proof of mental
damages,” the Fifth Circuit afﬁrmed a $140,000 award
based solely on the plaintiff ’s testimony in Tureaud v.
Grambling State University for emotional distress
damages to a law enforcement ofﬁcer who accused his
employer of retaliatory discharge. Tureaud, 294 F.
App’x at 916.
In Forsyth v. City of Dallas, the Fifth Circuit afﬁrmed emotional anguish awards of $100,000 and
$75,000 respectively for two police ofﬁcers who successfully sued the city for First Amendment retaliation
when they were transferred from the intelligence unit
to night uniformed patrol after making allegations of

App. 52
illegal wiretapping within the police department. Forsyth, 91 F.3d at 774. The $100,000 award was based on
the plaintiff ’s testimony “that she suffered depression,
weight loss, intestinal troubles, and marital problems,
that she had been sent home from work because of her
depression, and that she had to consult a psychologist.”
Id. The $75,000 award was based on the co-plaintiff ’s
testimony “that he suffered depression, sleeplessness,
and marital problems.” Id. In afﬁrming the awards, the
court stated, “Judgments regarding noneconomic damages are notoriously variable; we have no basis to reverse the jury’s evaluation.” Id.
In the present case, Dr. Wigginton testiﬁed that he
relocated to Oxford, Mississippi, to pursue the tenured
faculty position with the University of Mississippi and
set down roots and built a life in the community. He
lived here with his family for seven years and was ultimately forced to uproot his life and relocate because
of the defendants’ wrongful actions. After the defendants’ actions and attempting to mitigate his damages
and provide for his family, prior to moving, Dr. Wigginton commuted 730 miles round trip to Troy University in southern Alabama at the age of 65 years old.
The commute required him to spend multiple nights
per week in a motel away from his family.
Dr. Wigginton further testiﬁed that he had never
been seriously ill before the events giving rise to this
action. He testiﬁed that he took the only position he
could ﬁnd, which happened to be 365 miles away from
home. He testiﬁed that he had commuted to Troy for
approximately a year when his wife found him

App. 53
unconscious on his bedroom ﬂoor after he had become
seriously ill with a bacterial infection that resulted in
a week-long hospitalization. During the hospitalization, he suffered cognitive, cardiological, and pulmonary difﬁculties.
Dr. Wigginton testiﬁed that his wrongful termination from the University constituted a devastating
blow to himself and his family. He stated that he felt
hurt and betrayed by ofﬁcials in whom he had placed
his trust. He testiﬁed that the stress associated with
the defendants’ actions eventually had a detrimental
effect on his health.
Dr. Wigginton also testiﬁed about the burden of
moving his family to Louisiana and selling his home in
Oxford in 2017. During this time Dr. Wigginton taught
an online course for Tulane University because he
could not ﬁnd another job. At the time of trial, he had
been teaching at the University of Southern Mississippi for approximately three months in a nontenured
position. As the position was non-tenured and the university’s budget was in a signiﬁcant deﬁcit with cuts
likely to be made, Dr. Wigginton continued to suffer
stress regarding his employment situation.
The court ﬁnds that Dr. Wigginton’s testimony
provides sufﬁcient evidence to support the jury’s
awards for past and future pain and suffering, inconvenience, mental anguish, and loss of enjoyment of life.
The evidence indicated that Dr. Wigginton’s health signiﬁcantly deteriorated after his wrongful termination
from the University. A signiﬁcant deterioration in

App. 54
health suggests a strong possibility of future pain and
suffering, in addition to past pain and suffering. The
jury was free to reach this conclusion and to attribute
the deterioration in Dr. Wigginton’s health to the deprivation of his due process rights.
The Fifth Circuit does “not reverse a jury verdict
for excessiveness except on the strongest of showings,”
and to determine whether a remittitur is in order, the
court applies the “loosely deﬁned ‘maximum recovery
rule.’ ” In re Parker Drilling Offshore USA, LLC, 323 F.
App’x 330, 333 (5th Cir. 2009). “This judge-made rule
essentially provides that [the court] will decline to reduce damages where the amount awarded is not disproportionate to at least one factually similar case
from the relevant jurisdiction.” Id. (quoting Douglass
v. Delta Air Lines, Inc., 897 F.2d 1336, 1344 (5th Cir.
1990)). The awards in the cases cited above were for
past compensatory damages alone. As the jury in the
present case awarded $100,000 for past damages and
$100,000 for future, the court ﬁnds that upholding
these awards is not inconsistent with the maximum recovery rule.
In light of Fifth Circuit precedent afﬁrming similar awards in similar cases and repeatedly upholding
such awards based solely on the plaintiff ’s testimony,
this court ﬁnds that the defendants’ motion to amend
the judgment is without merit. The court will neither
vacate the jury’s award nor reduce it. The motion is denied in its entirety.

App. 55
Conclusion
Based on the foregoing analysis, the court ﬁnds
that the defendants’ Renewed Motion for Judgment as
a Matter of Law and, Alternatively, for New Trial and
to Alter and Amend Judgment is denied. A separate order in accordance with this opinion shall issue this day.
This, the 1st day of April, 2019
/s/ Neal Biggers
NEAL B. BIGGERS, JR.
UNITED STATES DISTRICT JUDGE

App. 56
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF MISSISSIPPI
OXFORD DIVISION
MICHAEL WIGGINTON, JR.
V.
THE UNIVERSITY OF
MISSISSIPPI, CHANCELLOR
DANIEL W. JONES, PROVOST
MORRIS H. STOCKS,
DEAN JOHN Z. KISS, DEAN
VELMER BURTON, AND
CHAIR ERIC LAMBERT

PLAINTIFF
CIVIL ACTION NO.
3:15CV093-NBB-RP

DEFENDANTS

ORDER
(Filed Apr. 1, 2019)
In accordance with the memorandum opinion issued this day, it is ORDERED AND ADJUDGED
that the individual defendants’ Renewed Motion for
Judgment as a Matter of Law and, Alternatively, for
New Trial and to Alter and Amend Judgment is DENIED.
This, the 1st day of April, 2019.
/s/ Neal Biggers
NEAL B. BIGGERS, JR.
UNITED STATES DISTRICT JUDGE

App. 57
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF MISSISSIPPI
OXFORD DIVISION
MICHAEL WIGGINTON, JR.
V.
THE UNIVERSITY OF
MISSISSIPPI, CHANCELLOR
DANIEL W. JONES, PROVOST
MORRIS H. STOCKS,
DEAN JOHN Z. KISS, DEAN
VELMER BURTON, AND
CHAIR ERIC LAMBERT

PLAINTIFF
CIVIL ACTION NO.
3:15CV093-NBB-RP

DEFENDANTS

ORDER DENYING SUMMARY JUDGMENT
(Filed Oct. 5, 2017)
Presently before the court is the defendants’ motion for summary judgment. Upon due consideration of
the motion, response, exhibits, and supporting and opposing authority, the court is ready to rule.
The plaintiff, Dr. Michael Wigginton, Jr., joined
the Department of Legal Studies within the School of
Applied Sciences at the University of Mississippi as an
Assistant Professor in 2008. He alleges that despite
his outstanding resume and documented success as a
professor, his application for tenure and promotion was
wrongly denied and his employment terminated, as a
result of the defendants’ discrimination based upon
the plaintiff ’s gender, race, and age. Wigginton, a Caucasian male, was sixty-ﬁve years old at the time his
application for tenure and promotion was denied and

App. 58
his employment with the University terminated. Subsequent to the plaintiff ’s termination, two individuals
were hired as tenure-track professors in the Department of Legal Studies, an African man in his thirties
from Ghana and a Caucasian woman in her thirties.
The plaintiff ’s career in academia was preceded by
a lengthy career in law enforcement. The plaintiff
served in the United States Air Force, the New Orleans
Police Department, the Louisiana State Police, the
United States Department of Justice Drug Enforcement Administration, the United States Customs Service Ofﬁce of Investigations, and the Federal Bureau of
Investigation Joint Terrorism Task Force.
The University’s Tenure Policies and Procedures
mandate annual reviews which address tenure criteria
and eligibility for non-tenured faculty. To apply for
tenure and promotion, a candidate must include his
annual reviews in his dossier. In the ﬁve academic
years the plaintiff served on the University faculty before applying for tenure and promotion, he received
outstanding reviews. In addition to these positive annual reviews, the plaintiff was nominated for the
Thomas A. Crowe Award for the School of Applied Sciences for the 2013 spring semester. Defendant Velmer
Burton, Dean of the School, advised the plaintiff of his
nomination in a letter stating, “This is an award that
celebrates and recognizes meritorious faculty engagement in scholarship, teaching, and service.”
The plaintiff ’s application for tenure and promotion went through numerous levels of review, including

App. 59
the Department Promotion and Tenure Committee
and an Advisory Committee to the Dean of the School,
both of which recommended tenure based on a 5-2
majority vote and a 3-2 majority vote respectively. Further, the Department faculty and the plaintiff ’s external reviewers recommended tenure and promotion.
Defendant John Kiss, Dean of the Graduate School,
Defendant Burton, Dean of the School of Applied Sciences, and Defendant Eric Lambert, Chair of the Department of Legal Studies, however, all reviewed
Wigginton’s tenure application and recommended denial, contradicting the recommendations of the aforementioned committees. The defendants assert that the
recommendations of denial were based in part on the
discounting of the plaintiff ’s external reviewers, which
the plaintiff notes had been previously approved by the
University, and an alleged deﬁciency in scholarship,
despite the plaintiff ’s ﬁve previous annual reviews
which commended his scholarship and research.
In accordance with the University’s Tenure Policies and Procedures, prior to a tenure and promotion
application being evaluated by the Provost, a Review
Committee provides an assessment of whether the appropriate procedures were followed in the application
review process. The Review Committee is comprised of
tenured professional faculty members from throughout the University. On February 6, 2014, Dr. Anne
Bomba, as a member of the Review Committee, found
that violations occurred during the evaluation of the
plaintiff ’s tenure application. Among these violations,
Dr. Bomba found that appropriate procedures were not

App. 60
followed, that non-permissible grounds led to a negative recommendation, that the Department Guidelines
were not followed, and that the tenure and promotion
process was not properly applied. Dr. Bomba also questioned whether the recommendations of denial were
arbitrary and capricious.
Despite Dr. Bomba’s concerns, the review process
continued, and the plaintiff ’s dossier reached defendant, the University Provost, for action. In March 2014,
the Provost advised the plaintiff that he would not recommend him for tenure and promotion and that Wigginton had the right to appeal the decision. The
plaintiff then appealed the denial of tenure to the University Tenure and Promotion Appeals Committee. After an April 14, 2014 hearing, the committee concluded
that the plaintiff ’s prior positive reviews led the plaintiff to expect a grant of tenure and promotion. The Appeals Committee held “that the discounting of the
external reviewer letters was inappropriate since the
reviews were selected through the University’s own actions.”
The Appeals Committee further concluded that
the denial of tenure and promotion was arbitrary and
capricious and recommended an extension of Wigginton’s probationary period.
Despite the Appeals Committee’s recommendation, the defendant Chancellor of the University at
that time denied the plaintiff ’s application for tenure
and promotion and refused to extend the plaintiff ’s
probationary period. The Chancellor later terminated

App. 61
Wigginton’s employment in June 2014, effective May
10, 2015. The plaintiff appealed the Chancellor’s decision denying him tenure to the Mississippi Board of
Trustees of Institutions of Higher Learning (the “IHL
Board”), which denied his request for review. The IHL
Board later terminated the Chancellor’s employment
in March 2015.
The plaintiff ﬁled the present action on June 11,
2015, and his amended complaint on October 26, 2015.
He alleges violations of the Civil Rights Act of 1964, as
amended, the Age Discrimination in Employment Act,
and 42 U.S.C. § 1983, seeking damages and declaratory
and injunctive relief against the defendants for committing acts under color of state law with the intent of
depriving him of constitutional and statutory rights;
wrongfully discriminating against him on the basis of
race, gender, and age; arbitrarily and capriciously
denying him of property and liberty interests in violation of his due process rights; retaliating against him
for his exercise of constitutionally protected speech in
violation of the First Amendment; and state law claims
including breach of the plaintiff ’s employment contract with the University.
The defendants subsequently moved to dismiss
pursuant to Rules 12(b)(1) and 12(b)(6) and on qualiﬁed immunity grounds. The court denied the motions.
The defendants have now moved for summary judgment on all claims.
Having thoroughly reviewed the record, brieﬁng,
and applicable authority in this case, the court ﬁnds

App. 62
the existence of genuine issues of material fact including, but not limited to, whether the defendants’ proffered legitimate reason for the plaintiff ’s denial of
tenure and promotion is pretext for discrimination,
whether the defendants’ decision to deny tenure and
promotion to the plaintiff was arbitrary and capricious,
and whether the individually named defendants retaliated against the plaintiff by denying his application
for tenure and promotion because the plaintiff exercised his right to constitutionally protected speech of
which the defendants were aware. The presence of genuine issues of material fact precludes summary judgment in this case.
Accordingly, it is ORDERED AND ADJUDGED
that the defendants’ motion for summary judgment
should be and the same is hereby DENIED.
This, the 5th day of October, 2017.
/s/ Neal Biggers
NEAL B. BIGGERS, JR.
UNITED STATES DISTRICT JUDGE

App. 63
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF MISSISSIPPI
OXFORD DIVISION
MICHAEL WIGGINTON, JR.
V.
THE UNIVERSITY OF
MISSISSIPPI; DAN JONES,
Individually, and in his Ofﬁcial
Capacity as Chancellor;
MORRIS H. STOCKS, Individually, and in his Ofﬁcial Capacity
as Provost; JOHN Z. KISS,
Individually, and in his Ofﬁcial
Capacity as Dean; VELMER
BURTON, Individually, and in
his Ofﬁcial Capacity as Dean;
and ERIC LAMBERT, Individually, and in his Ofﬁcial Capacity
as Department Chair

PLAINTIFF
CIVIL ACTION NO.
3:15CV093-NBB-SAA

DEFENDANTS

MEMORANDUM OPINION
(Filed Sep. 30, 2016)
This cause comes before the court upon the defendants’ motion to dismiss for failure to state a claim
and motion to dismiss for lack of jurisdiction. Upon due
consideration of the motions, responses, and applicable
authority, the court is ready to rule.

App. 64
Factual and Procedural Background
The plaintiff, Michael Wigginton, Jr., brings this
civil action for violations of the Civil Rights Act of
1964, as amended, the Age Discrimination in Employment Act, and 42 U.S.C. § 1983 seeking damages and
injunctive relief against the defendants for allegedly
committing acts under color of state law with the intent of depriving him of constitutional and statutory
rights; wrongfully discriminating against him on the
basis of race, color, sex, and age; arbitrarily and capriciously denying him of property and liberty interests;
retaliating against him for his exercise of constitutionally protected speech in violation of the First Amendment; and state law claims including breach of the
plaintiff ’s employment contract with the University of
Mississippi.
Defendant University of Mississippi hired Wigginton in 2008 as a tenure-track assistant professor in
the Department of Legal Studies in the School of Applied Sciences. Wigginton applied for tenure and promotion in 2013. Wigginton’s application went through
numerous levels of review, including the Department
Promotion and Tenure Committee and an Advisory
Committee to the Dean of the School, both of which recommended tenure based on a 5-2 majority vote and a
3-2 majority vote respectively. Defendant John Kiss,
Dean of the Graduate School, Defendant Velmer Burton, Dean of the School of Applied Sciences, and Defendant Eric Lambert, Department Chair, however, all
reviewed Wigginton’s tenure application and recommended denial, contradicting the recommendations of

App. 65
the aforementioned committees. These decisions were
based in part on the discounting of the plaintiff ’s external reviewers. In March 2014, Defendant Provost
Morris Stocks advised the plaintiff that he would not
recommend him for tenure or promotion and that
Wigginton had the right to appeal the denial.
The plaintiff appealed the University’s decision to
the University Tenure and Promotion Appeals Committee. After an April 14, 2014 hearing, the committee
concluded that Defendant Lambert’s prior positive reviews of Wigginton led him to expect a grant of tenure
and promotion. The Appeals Committee held “that the
discounting of the external reviewer letters was inappropriate since the reviews were selected through the
University’s own actions.” The Appeals Committee
concluded that the negative recommendation was arbitrary and capricious and recommended an extension
of Wigginton’s probationary period.
Despite the recommendation of the University’s
Tenure and Promotion Appeals Committee, Defendant
Jones denied the plaintiff ’s application for tenure and
promotion and refused to extend the plaintiff ’s probationary period. On June 17, 2014, Jones terminated
Wigginton’s employment effective May 10, 2015. Wigginton appealed Jones’ decision to the Mississippi
Board of Trustees of Institutions of Higher Learning
(the “IHL Board”) which denied his request for review
on December 18, 2014. The IHL Board terminated
Jones as Chancellor in March 2015.

App. 66
The plaintiff ﬁled the present action on June 11,
2015, and his amended complaint on October 26, 2015.
The defendants subsequently ﬁled their motion to dismiss for failure to state a claim and for qualiﬁed immunity and their motion to dismiss for lack of subject
matter jurisdiction. The motions are fully briefed and
ripe for review.
Standards of Review
12(b)(1) – Lack of Subject Matter Jurisdiction
“Motions ﬁled under Rule 12(b)(1) of the Federal
Rules of Civil Procedure allow a party to challenge the
subject matter jurisdiction of the district court to hear
a case.” Ramming v. U.S., 281 F.3d 158, 161 (5th Cir.
2001). The court properly dismisses a claim for lack of
subject matter jurisdiction when it lacks the statutory
or constitutional authority to adjudicate the claim.
Home Builders Ass’n, Inc. v. City of Madison, Miss., 143
F.3d 1006, 1010 (5th Cir. 1998). “The burden of proof
for a Rule 12(b)(1) motion to dismiss is on the party
asserting jurisdiction.” Ramming, 281 F.3d at 161. “Accordingly, the plaintiff constantly bears the burden of
proof that jurisdiction does in fact exist.” Id.
12(b)(6) – Failure to State a Claim
“To survive a motion to dismiss, a complaint must
contain sufﬁcient factual matter, accepted as true, to
‘state a claim to relief that is plausible on its face.’ ”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (citing Bell
Atlantic Corp. v. Twombly, 550 U.S. 544, 570 (2007)).

App. 67
“A claim has facial plausibility when the plaintiff
pleads factual content that allows the court to draw
the reasonable inference that the defendant is liable
for the misconduct alleged.” Id.
“Motions to dismiss under Rule 12(b)(6) are
viewed with disfavor and are rarely granted.” Lormand
v. U.S. Unwired, Inc., 565 F.3d 228, 232-33 (5th Cir.
2009). A court must accept all well-pleaded facts as
true and must draw all reasonable inferences in favor
of the plaintiff. Id. But the court is not bound to accept
as true legal conclusions couched as factual allegations. Iqbal, 556 U.S. at 678.
A legally sufﬁcient complaint must establish more
than a “sheer possibility” that the plaintiff ’s claim is
true. Id. It need not contain detailed factual allegations, but it must go beyond labels, legal conclusions,
or formulaic recitations of the elements of a cause of
action. Twombly, 550 U.S. at 555. In other words, the
face of the complaint must contain enough factual
matter to raise a reasonable expectation that discovery
will reveal evidence of each element of the plaintiff ’s
claim. Lormand, 565 F.3d at 255-57. If there are insufﬁcient factual allegations to raise a right to relief above
the speculative level or if it is apparent from the face
of the complaint that there is an insuperable bar to relief, the claim must be dismissed. Twombly, 550 U.S. at
555; Jones v. Bock, 549 U.S. 199, 215 (2007); Carbe v.
Lappin, 492 F.3d 325, 328 & n.9 (5th Cir. 2007).

App. 68
Qualified Immunity
Qualiﬁed immunity protects a defendant acting
under color of state law “insofar as his conduct does
not violate clearly established statutory or constitutional rights of which a reasonable person would have
known.” Harlow v. Fitzgerald, 457 U.S. 800, 818-19
(1982). The court is to apply a two-step analysis, now
discretionary, to determine whether a government ofﬁcial is entitled to qualiﬁed immunity. Pearson v. Callahan, 555 U.S. 223, 232 (2009). “First, the plaintiff must
show that he suffered a constitutional violation, and
then [the court] must determine whether the action
causing the violation was objectively unreasonable in
light of clearly established law at the time of the conduct.” Lacy v. Shaw, 357 Fed. App’x 607, 609 (5th Cir.
2009) (citing Freeman v. Gore, 483 F.3d 404, 410 (5th
Cir. 2007)). Qualiﬁed immunity “provides ample protection to all but the plainly incompetent or those who
knowingly violate the law.” Malley v. Briggs, 475 U.S.
335, 341 (1986).
Analysis
It is axiomatic that “absent waiver by the State or
valid congressional override, the Eleventh Amendment
bars a damages action against a State in federal court.”
Kentucky v. Graham, 473 U.S. 159, 169 (1985). This bar
also applies when state ofﬁcials are sued for damages
in their ofﬁcial capacity because “a judgment against a
public servant in his ofﬁcial capacity imposes liability
on the entity that he represents.” Id. It is well settled

App. 69
that Mississippi’s state universities are arms of the
State and, as such, are immune from suit under the
Eleventh Amendment unless an exception applies. See
Yul Chu v. Miss. State Univ., 901 F. Supp. 2d 761, 772
(N.D. Miss. 2012). The state’s immunity can be overcome in an injunctive or declaratory action grounded
on federal law by naming state ofﬁcials as defendants.
Graham, 473 U.S. at 170, n.18 (citing Pennhurst State
School & Hospital v. Halderman, 465 U.S. 89 (1984);
Ex parte Young, 209 U.S. 123 (1908)). The Ex Parte
Young exception to Eleventh Amendment immunity
allows the plaintiff ’s Section 1983 claims for prospective injunctive relief to proceed against the individually named defendants in their ofﬁcial capacities.
Yul Chu, 901 F. Supp. 2d at 775. For this reason, the
court ﬁnds that, while the plaintiff cannot recover
monetary damages from the University for any claims
falling under Section 1983, he has sufﬁciently stated
claims for injunctive and declaratory relief that are
plausible on their face and therefore survive this stage
of the litigation. This includes the plaintiff ’s claims under the Age Discrimination in Employment Act.
The plaintiff ’s Title VII claims survive because
the plaintiff has alleged sufﬁcient factual matter
which the court must accept as true showing that the
defendants may be liable for the conduct alleged. Further, Title VII expressly authorizes suits against the
states and thereby abrogates Eleventh Amendment
immunity. Carpenter v. Miss. Valley State Univ., 807
F. Supp. 2d 579, 585 (N.D. Miss. 2011) (citing Idaho v.
Coeur d’Alene Tribe of Idaho, 521 U.S. 261 (1997)).

App. 70
Taking the plaintiff ’s allegations as true at this
stage and drawing all reasonable inferences in favor of
the plaintiff from those allegations, the court ﬁnds that
the individual defendants are not entitled to qualiﬁed
immunity. The court is satisﬁed that the plaintiff has
alleged sufﬁcient factual matter to meet the requirements of Harlow, supra, and its progeny as well as
Lormand and Iqbal, supra.
Conclusion
For the foregoing reasons, the court ﬁnds that the
defendants’ motions to dismiss and for qualified immunity are not well taken and should be denied. A
separate order in accord with this opinion shall issue
this day.
This, the 30th day of September, 2016.
/s/ Neal Biggers
NEAL B. BIGGERS, JR.
UNITED STATES DISTRICT JUDGE

App. 71
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF MISSISSIPPI
OXFORD DIVISION
MICHAEL WIGGINTON, JR.
V.
THE UNIVERSITY OF
MISSISSIPPI; DAN JONES,
Individually, and in his Ofﬁcial
Capacity as Chancellor;
MORRIS H. STOCKS, Individually, and in his Ofﬁcial Capacity
as Provost; JOHN Z. KISS,
Individually, and in his Ofﬁcial
Capacity as Dean; VELMER
BURTON, Individually, and in
his Ofﬁcial Capacity as Dean;
and ERIC LAMBERT, Individually, and in his Ofﬁcial Capacity
as Department Chair

PLAINTIFF
CIVIL ACTION NO.
3:15CV093-NBB-SAA

DEFENDANTS

ORDER DENYING MOTIONS TO DISMISS
(Filed Sep. 30, 2016)
In accordance with the memorandum opinion issued this day, it is ORDERED AND ADJUDGED
that the defendants’ motion to dismiss for lack of
subject matter jurisdiction and motion to dismiss for
failure to state a claim, including the motion for
qualified immunity of the individual defendants, are
DENIED.

App. 72
This, the 30th day of September, 2016.
/s/ Neal Biggers
NEAL B. BIGGERS, JR.
UNITED STATES DISTRICT JUDGE

